HHS/OIG, Audit -"State of Michigan's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response to Bioterrorism Program Funds,"(A-05-03-00080)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Michigan's Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness and Response
to Bioterrorism Program Funds," (A-05-03-00080)
October 7, 2003
Complete
Text of Report is available in PDF format (140 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Michigan Department of
Community Health (State agency):  (i) properly recorded, summarized and reported bioterrorism preparedness transactions
by specific focus areas designated in the cooperative agreements and (ii) whether the State agency had controls and procedures
to monitor sub-recipient expenditures of Centers for Disease Control and Prevention (CDC) funds.  We found that
the State agency generally accounted for program funds by specific focus area.  In response to our inquiry as to
whether the State agency reduced funding to existing public health programs, State officials replied that Program funding
had not been used to supplant existing State or local programs.  We recommended the State agency continue to comply
with the terms and conditions of the cooperative agreements. The State agency
concurred with our findings and recommendation.